<html>
<title> - DEFEATING TERRORISM IN SYRIA: A NEW WAY FORWARD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]










                     DEFEATING TERRORISM IN SYRIA: 
                           A NEW WAY FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2017

                               __________

                            Serial No. 115-3

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-241PDF                      WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Hassan Hassan, senior fellow, The Tahrir Institute for Middle 
  East Policy....................................................     6
The Honorable Frederic C. Hof, director, Rafik Hariri Center for 
  the Middle East, Atlantic Council..............................    13
Ms. Melissa Dalton, senior fellow, Center for Strategic and 
  International Studies..........................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Hassan Hassan: Prepared statement............................     9
The Honorable Frederic C. Hof: Prepared statement................    15
Ms. Melissa Dalton: Prepared statement...........................    21

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Material submitted for the record.    48

 
                     DEFEATING TERRORISM IN SYRIA: 
                           A NEW WAY FORWARD

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    I will make my opening statement at this time.
    The Syrian war has raged for nearly 6 years. Syria is in 
chaos. Terrorists, foreign fighters, rebels, foreign 
governments, all are engaged in battle for territory and 
control of different aspects of Syria.
    On the screen--let's go back to the previous screen--you 
will see different areas of Syria. And the different areas that 
are controlled by ISIS is in the dark section.
    Let's flip to the next screen quickly. I don't know if you 
can read that or not. There should be--for at least the panel 
in front of you, you should have the different actors, the 
state actors on one side and then the nonstate actors on the 
other.
    The state actors are divided into pro-Assad and actors that 
are opposed to Assad, with the Middle Eastern countries at the 
top of each list, and then you have non-Middle Eastern 
countries at the bottom of each list. And you can see that 
there are numerous countries aligned on both sides.
    And then there are nonstate actors that are involved, and 
those are a multitude of groups. They call themselves different 
things at different times. Some are terrorist groups. Some 
claim not to be terrorist groups that are terrorist groups.
    One of the biggest things that I think we should know is 
that we have terrorist groups on both sides. We have Hezbollah 
on one side, which is obviously a terrorist group fighting for 
Assad; and we have ISIS on the other side that is a terrorist 
group. Al-Qaeda is a terrorist group, and they are also 
somewhat aligned with the anti-Assad group.
    You have a multitude of actors all seeking their own self-
interest in Syria. And this hearing is about really what do we 
see happening not only now but, hopefully, what is the end game 
after 6 years of war.
    The losers in this have been the Syrian people, and I think 
they will continue to be the losers because, as the war rages, 
the war affects them more than anyone else. Half a million 
Syrian people have died, at least, in this war. And I don't 
call it a conflict; I call it a war. When you start dropping 
bombs on people, that is not a conflict, that is a war. Fifty 
thousand of those people, by all estimates, have been children. 
Five million Syrians have become refugees; 6 million are 
internally displaced. So that has been about 11 percent of the 
Syrian population killed or injured since the start of the 
violence.
    The perpetrator of all of this sits directly at the regime 
of Bashar Assad and his backers in Moscow and Tehran. Assad has 
pursued a policy of murdering anybody that expresses criticism 
of his power. He uses barrel bombs, and it doesn't make any 
difference who those barrel bombs fall on as long as he thinks 
they are opposed to his regime.
    Russia intervened in Syria in September 2015 and began air 
strikes against what it called terrorist targets. The Russians 
apparently are not very good in their targeting because it 
seems as though they have killed thousands of people in Syria 
and they haven't all been terrorists. The Syrian Network for 
Human Rights suggested last year that Russian strikes killed 
more Syrians than ISIS members.
    Iran's terrorist proxy, Hezbollah, has also bloodied its 
hands in Syria. Since 2013, Hezbollah has operated openly in 
Syria, killing on behalf of the Assad regime. It has also 
created in Syria a perfect environment for out-of-towners, as I 
call them, who show up with their own self-interest, including 
terrorist groups. ISIS is there, and while ISIS no longer 
controls as much territory as they did in 2014, they still 
control major aspects of the Syrian population centers.
    I have furnished each of our panelists a map, and there is 
also a map on the wall. Due to time constraints, I can't go 
into all of the details. But the thin black line in the middle 
of Syria and in the southern part of Syria is what is 
controlled by ISIS. The Kurds control the northern purple area. 
The yellow area is controlled by al-Qaeda and so-called Syrian 
dissidents and rebel groups. And then Assad controls the pink 
area to the west.
    The questions to be asked today are: What is going to 
happen in the end game? What is the end game? And, also, I 
would like to know from our panelists, what is the national 
security interest of the United States? Should we ratchet it 
up? Should we do what we are doing now, which is kind of the 
Vietnam syndrome? Or should we leave it to the Middle East to 
resolve this conflict themselves? I would like the opinion of 
all three panelists to those three questions.
    And I will turn it over to the gentleman from 
Massachusetts, who has fled to Washington to get out of the 
snow, for his opening statement.
    Mr. Keating. Thank you, Chairman Poe. And thank you for 
holding this hearing today.
    The situation we have watched unfold in Syria the last 6 
years has been wrought with complexities and, the chairman and 
I agree, with chaos and atrocities under the Assad government. 
Today, the war and the resulting humanitarian crisis is nothing 
short of a global tragedy.
    So I am grateful for the attendance of our witnesses--Mr. 
Hassan, Ambassador Hof, Ms. Dalton--for their valuable insight 
into the ongoing political strife and challenges that the 
international community as well as the new administration faces 
in the months and years ahead.
    If we are going to be smart about terrorism and 
specifically the rising role of ISIL, then we must first come 
to terms with the reality that their model of terrorism is 
built on a foundation of radicalization. To continue fighting 
ISIL in the battlefield requires that we recognize this pattern 
of recruitment and evolution in fighting tactics.
    As we make progress in diminishing their territory, we must 
be mindful of their shifts in strategy to prioritize covert 
radicalization rather than maintain geographic strongholds. It 
becomes essential that we engage in this war of ideas by 
providing potential recruits with a choice of narratives. Those 
choices should include a path forward other than terrorism.
    But, even more importantly, we must recognize that 
strengthening the resiliency and stability of communities is 
necessary for eradicating terrorism. And when families live in 
fear and when no one is accountable for keeping them safe and 
protecting their freedom, we will never be able to eliminate 
the conditions that produce these terrorists.
    Countering ISIL in Syria, however, cannot be viewed as a 
one-dimensional prospect. Preventing attacks and limiting 
ISIL's capacity to operate within its network caliphates are 
also crucial to eliminating the terrorist threat there.
    The U.S. cannot do this alone, nor should we. But we should 
also be wary of the compromises we are being asked to make, 
allegedly in the name of securing peace and combating 
terrorism.
    I have grave concerns about the role of Russia and Iran and 
what they intend to play in countering ISIL and preventing 
future terrorists. Left without proper oversight or debate, 
this same Congress may 5, 10, or 15 years from now preside over 
a hearing of the same subject, examining how a Russian- and 
Iranian-led resolution to this crisis allowed ISIL to survive 
and become embedded in the region, like other terrorist groups 
which continue to pose a threat to the U.S. today.
    For the time being, I believe we still have strong allies 
in Europe and the Middle East whose interests align with ours 
and who can make valuable contributions, along with our own, to 
tackle this threat. Our existing partnerships on intelligence-
sharing, security, military strategy are robust, and we are 
united with our allies along a common goal for a peaceful 
resolution to this gruesome conflict and a stable political 
outcome for the people of Syria.
    Even with close partnerships, there is still room for even 
stronger, more effective cooperation to close some of the gaps 
and inconsistencies that ISIL continues to exploit. With all 
the progress in the past decades to cement effective security 
partnerships among the U.S. and our allies, there is now a 
sound foundation to build upon that, together, we can isolate 
and destroy these terrorist threats. Neglecting these 
partnerships and incredible assets in the fight against 
terrorism would be a costly mistake.
    Countering terrorism in Syria is a complex, multifaceted 
issue. If we fail to craft a comprehensive plan to address it, 
aspects of our national security will be compromised.
    I look forward to the witnesses' testimony today and 
hearing from you on how to balance these diverse and sometimes 
seemingly divergent considerations when attempting to combat 
ISIL in Syria.
    I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair will recognize members for 1-minute opening 
statements, and the Chair will follow the 60-minute--60-second 
rule, not 60 minutes.
    The gentleman from South Carolina is recognized for 1 
minute.
    Mr. Wilson. Thank you, Mr. Chairman, Judge Poe.
    And he and I worked together very closely on the 60-second 
rule, I can assure you.
    But I want to thank the chairman for having such 
distinguished witnesses. And, already, this has been a helpful 
hearing to me, the map showing the level of control, how narrow 
it is, Damascus, west and north, but also to see the success of 
the Kurdish regional efforts from Iraq.
    It is very important to me that we support the people of 
the Kurdish region, with the understanding that they are 
working to maintain and build a stable Iraq, and by doing that, 
by not indicating--expanding beyond the borders. But they are 
very successful. And that was very instructive to me, so I am 
very, very hopeful.
    Additionally, I look forward to hearing of your efforts 
regarding counterpropaganda.
    Thank you. And I, within the 60 seconds, hereby yield the 
balance of my time.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Illinois, Mr. 
Schneider.
    Mr. Schneider. Thank you, Chairman Poe, Ranking Member 
Keating, for convening this important hearing.
    And thank you to the witnesses for providing your expertise 
to inform this incredibly important discussion.
    I hope that we all came here today with the recognition 
that Syria must be a priority for the new administration. With 
5 million refugees and 6 million internally displaced people 
and more than 500,000 mostly civilians killed, the 6-year civil 
war is the greatest humanitarian crisis of the new century.
    Syria borders key American allies, namely Israel, Jordan, 
and Turkey. The civil war is putting extreme pressure on the 
bordering states as well as the European nations. For 6 years, 
the situation has only gotten worse.
    I hope our witnesses can shed light on how to neutralize 
and defeat the terrorist groups ISIS and Jabhat Fateh al-Sham, 
while at the same time working toward a political solution for 
the country that does not include Bashar al-Assad or cede 
control of Syria to Iran and its proxy Hezbollah nor lead to 
further instability and the consequent return of terrorist 
groups.
    As you have all shared in your testimony, there are no easy 
solutions or even mostly good choices, but walking away is 
clearly not an option.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Cook.
    Mr. Cook. Thank you very much, Mr. Chairman. I think this 
is a great hearing.
    The problem that I have always with this is that every 6 
months, a year, the players, the situation changes. And for us 
to get a grasp on this, it is almost impossible. We just had a 
similar hearing in the House Armed Services Committee, a 
different approach.
    And I did want to thank Ambassador Hof for his service in 
Vietnam, where you were awarded the Purple Heart. I understand 
that you were involved in the 1983 investigation of the bombing 
of the Marine barracks, 1st Battalion, 8th Marines. That was 
my--I was not with them. That was my former battalion. And what 
happened then still lingers, and I hope we can go back to some 
of the causes as they relate to today.
    I yield back. Thank you.
    Mr. Poe. I thank the gentleman.
    Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    When we talk about \1/2\ million people who are dead and 
have been killed in this, let's just admit this isn't just 
Assad. We keep saying Assad killed all these people. The fact 
is, if you look at our allies, whether it be Turkey, Saudi 
Arabia, Qatar, even the UAE, and certainly Iran, who is not an 
ally but in that region, any of those countries, any of those 
governments that faced an insurgency that kept on being 
financed over and over again would kill that many people. Assad 
is no different than the other dictators, yet we have insisted 
that he has to go. And, thus, the conflict goes on, and more 
and more people are made refugees and killed.
    Who is at fault? I think we should stick our nose out of 
this and let them have, yes, Assad and their dictators in all 
the rest of these countries, and the United States shouldn't 
keep these conflicts going on and on and on.
    Thank you.
    Mr. Poe. I thank the gentleman.
    Anybody else wish to make an opening statement?
    The Chair recognizes Ms. Titus.
    Ms. Titus. Well, thank you very much, Mr. Chairman, Ranking 
Member.
    You know, throughout the campaign, we heard from candidate 
Trump that he knew more than the generals and he had a secret 
plan for fighting ISIS. Now, apparently, he has gone to the 
Pentagon to ask for some assistance.
    As we go through this hearing, I would be curious to know 
what you all think about his willingness or ability to stick 
with a plan if we come up with it or if our policy is just 
going to jump from tweet to tweet.
    Thank you.
    Mr. Poe. The Chair will now introduce all three witnesses 
and then----
    Mr. Garrett. Mr. Chairman?
    Mr. Poe. Yes.
    Mr. Garrett. If I might? I had not originally not intended 
to make introductory remarks.
    Mr. Poe. The Chair recognizes for 1 minute.
    Mr. Garrett. Thank you, Mr. Chairman, Ranking Member.
    The comments by the gentleman from California sort of stir 
where I am on this. I think that this Nation would be well-
advised never to arm any entity without having an easily 
articulable plan for an end state that is preferable to the 
current status quo.
    And while Assad certainly has blood on his hands, I can't 
find, nor could former Secretary of State John Kerry, the Free 
Syrian Army. I couldn't tell you who leads it, which leaves us 
with two alternative solutions to the Assad problem, that being 
Jabhat al-Nusra or Jabhat Fateh al-Sham or ISIS, neither of 
which, I think, are a preferable option to a dictator in Assad, 
who has provided some level of stability, created a 
circumstance wherein 51 percent of college graduates in Syria 
are women and a safe zone for individuals of ethnic and 
religious minorities.
    I would yield back the balance of my time.
    Mr. Poe. I thank the gentleman.
    The Chair will now introduce the witnesses.
    Mr. Hassan is a senior fellow at the Tahrir Institute for 
Middle East Policy. He is co-author of ``ISIS: Inside the Army 
of Terror,'' a New York Times bestseller.
    Ambassador Frederic Hof is the director of the Rafik Hariri 
Center for the Middle East at the Atlantic Council. Previously, 
Ambassador Hof served as Special Coordinator for the State 
Department's Office of the Special Envoy for Middle East Peace.
    Ms. Melissa Dalton is a senior fellow and the deputy 
director of the International Security Program at CSIS. Her 
research focuses on U.S. defense policy in the Middle East, 
global U.S. defense strategy, and security cooperation with 
U.S. allies.
    Mr. Hassan, we will start with you.
    Each of you have 5 minutes. When you see the red light, 
stop talking.
    Mr. Hassan.

   STATEMENT OF MR. HASSAN HASSAN, SENIOR FELLOW, THE TAHRIR 
                INSTITUTE FOR MIDDLE EAST POLICY

    Mr. Hassan. Thank you very much, Chairman Poe and members 
of the subcommittee. It is a privilege to present today here my 
views on Syria and terrorism.
    I want to basically give, like, an optimistic view first. 
Despite the grim situation inside Syria, I think the U.S. 
Government has an opportunity to stem the challenges presented 
by the two international terrorist organizations operating in 
Syria, the Islamic State and al-Qaeda.
    In fact, I would argue that the United States has more 
options or options it didn't necessarily have 2 years ago, 
including a way to prevent not only the Islamic State and al-
Qaeda from operating in Syria or weakening both of them but 
also other radical groups from operating in at least 50 to 60 
percent of Syria. The territory I am talking about includes 
areas that the Islamic State controls or once controlled since 
2014.
    You know, the way ISIS does things is, when they take an 
area, they act as a washing powder, I would say, which is 
basically to eradicate any Islamist and jihadist cells 
operating in the areas where they operate, because they want to 
prevent any support system for their rivals.
    So they have done that in 50 to 60 percent of Syria--or 50 
percent of Syria, to be more precise. So for al-Qaeda now to go 
back and fill the vacuum left by ISIS, it has to revive dormant 
cells or rebuild influence almost from scratch. So there is an 
opportunity there to shape the communities in which ISIS 
operates today.
    So the expulsion of the Islamic State offers a rare 
opportunity, I would say, to implement a strategy to build an 
alternative to jihadist organizations, more so than you were 
able in 2014 when dozens of different armed groups operated in 
these areas.
    So the liberation of these areas by the U.S.-led coalition 
creates a de facto American sphere of influence, which both 
Russia and the regime have accepted for now, at least. This 
counterterrorism strategy involves a more foresighted or 
farsighted policy of establishing de facto safe zones in part 
of Syria where inhabitants can be protected from jihadists and 
from the regime and where the international community can also 
ensure that al-Qaeda, which now operates in only 1 to 2 percent 
of Syria, at least in a dominant manner, from rolling back into 
areas from which the Islamic State is expelled or is being 
expelled.
    Those safe zones can be established in the areas where the 
U.S. and allies have fought ISIS, as I said. The strategy I am 
proposing is basically a baseline, meaning it requires minimal 
American commitment. It builds on what the Americans are 
already doing inside Syria against the Islamic State and 
without which any fight against jihadism is doomed to fail. So 
this is the baseline.
    The war against the Islamic State has reached the point, in 
my opinion, where the Americans cannot--or the U.S. forces or 
the U.S.-led coalition cannot just pull out from Syria, because 
of, obviously, the ongoing fight against ISIS. It can choose, 
though--the U.S. can choose to continue with the current 
strategy, which I consider disastrous, and allow various forces 
to fill the ensuing vacuum after ISIS is defeated in some 
areas.
    Instead, I would propose that the U.S. must use its pre-
existing leverage to build a sound policy, a sound strategy 
that breaks away from the current strategy, which overlooks the 
political environment that enabled the rise of ISIS and other 
jihadists in the first place.
    What is lacking in the current policy is a real kind of 
strategy that utilizes this leverage to ensure the removal of 
jihadists, to prevent their return, to protect local 
communities from indiscriminate bombardments by the Assad 
regime, and minimize the conflict that is emerging among the 
various allies in northern Syria, namely the Kurds on one hand 
and the rebels and Turkey on the other hand.
    This strategy, obviously, is not an invitation for an 
American occupation of Syria or long-term nation-building that 
President Donald Trump has explicitly criticized. Instead, it 
is both realistic, essential, and expands on battlefield 
victories already scored over the past 2\1/2\ years in 
Operation Inherent Resolve against the Islamic State in 
northern Syria.
    The strategy, again, in my opinion, I think should 
acknowledge the fractured nature of the Syrian conflict today. 
To get a sense of this fracture, you have to look at kind of 
the map that Chairman Poe just presented, which basically 
divides Syria into four quadrants.
    One is the caliphate terrain, which extends from eastern 
Aleppo all the way to Iraq, Iraqi border, all the way to 
Palmyra in central Syria.
    And then you have the second one, the second quadrant, 
which is rebel-held areas in the north and the south. This is 
where the Americans and their allies--the Israelis, the 
Jordanians, and others--have actually done very well in 
ensuring that jihadists don't have dominance in that area and 
that there is, like, a relatively reliable moderate rebel 
coalition there and where al-Qaeda and Islamic State have some 
presence but they don't dominate.
    And the problem there, though, is that the rebel presence 
there is fragile and requires a policy to ensure that they 
would withstand the pressure from jihadists. And, actually, 
today is a good example of that, because Jabhat al-Nusra/al-
Qaeda has started to challenge that dynamic in southern Syria.
    The third quadrant, very quickly, is the more fragmented 
northwest----
    Mr. Poe. The gentleman's time has expired.
    [The prepared statement of Mr. Hassan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Mr. Poe. And the subcommittee will be in recess for votes. 
We will start 5 minutes after the last vote has ended. The 
subcommittee is in recess.
    [Recess.]
    Mr. Poe. The subcommittee will come to order.
    Ambassador Hof, we will hear your testimony.

  STATEMENT OF THE HONORABLE FREDERIC C. HOF, DIRECTOR, RAFIK 
      HARIRI CENTER FOR THE MIDDLE EAST, ATLANTIC COUNCIL

    Ambassador Hof. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Keating, members of the 
committee, I would summarize the key points of my testimony for 
the record as follows: First, both the Obama and the Trump 
administrations have defined defeating terror in Syria largely 
in terms of neutralizing two rival descendants of al-Qaeda in 
Iraq, namely the so-called Islamic State, ISIL, and the Jabhat 
Fatah al-Sham, JFS, formerly known as the Nusrah Front.
    ISIL has had mainly a live and let live arrangement with 
the Syrian regime of Bashar al-Assad. JFS has fought the regime 
while at the same time trying to dominate nationalist Syria 
First armed rebel units.
    Second, terminating the military capabilities of both of 
these organizations is critically important. But if our goal in 
Syria is to kill terror and keep it dead, ultimately, a 
political system reflecting legitimacy has to take hold. Absent 
a political system that virtually all Syrians see as 
satisfactory with no superior alternative, absent that, 
extremists will seek to rise again to fill the vacuum created 
by gross corruption, incompetence, and brutality.
    Third, the main obstacle to political legitimacy in Syria 
is the survival of a regime headed by Bashar al-Assad and 
supported by Iran and Russia. The collective punishment and 
mass homicide survival strategy of this regime has been the 
main factor behind a humanitarian abomination and a political 
catastrophe.
    Yesterday, the Atlantic Council released a report entitled, 
``Breaking Aleppo.'' This report details and documents the 
campaign of terror inflicted by the Assad regime and Russia on 
the civilians of Aleppo. It adds to the enormous body of 
evidence of war crimes and crimes against humanity committed in 
Syria over the past 6 years, the overwhelming majority of which 
have been committed by the regime and its allies. These crimes 
have helped ISIL and JFS enormously in their recruiting.
    Fourth, even if the diplomatic pursuit of political 
legitimacy in Syria is a long-term project, neutralizing ISIL 
and JFS militarily are urgent priorities. Two successive 
Presidents have defined both organizations as threats to 
American national security. ISIL in Syria, which has planned 
and executed major atrocities in Europe, is currently under 
attack by a U.S.-led air coalition and a U.S.-advise ground 
force, largely Kurdish in composition.
    I understand the administration is reviewing this military 
approach in light of Turkish objections to the Kurdish role and 
the objective desirability of liberating densely populated 
areas with highly skilled military professionals.
    JFS is under attack by U.S. and Russian air assets 
independently with Syrian nationalist rebel forces seeking ways 
and means to defeat it. These nationalists will need a tight 
Russian leash on Assad and on Iranian-led foreign militias in 
order to move effectively against JFS. It is not yet clear that 
they will get Russian cooperation.
    Fifth and finally, thanks to Russian and Iranian military 
intervention, Assad seems secure in at least part of Syria. 
Iran, in particular, needs Assad to bind Syria to Lebanon's 
Hezbollah, another important Islamist terrorist group. But 
Assad's political well-being means the indefinite continuation 
of state terror in Syria.
    As the United States and its partners move ideally with 
dispatch against ISIL and JFS, any temptation to make common 
cause with or improve the political prospects of Syria's 
premier practitioner of terror, Bashar al-Assad, must be 
resisted. Reports of Russian disaffection with Assad and with 
Iranian-led militias should be explored.
    Killing terror in Syria and keeping it dead will, I am 
afraid, be a long-term endeavor for the United States and its 
partners, one extending far beyond the defeats of ISIL and JFS.
    [The prepared statement of Ambassador Hof follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
                              ----------                              

    Mr. Poe. Thank you, Ambassador Hof.
    Ms. Dalton.

  STATEMENT OF MS. MELISSA DALTON, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Dalton. Chairman Poe, Ranking Member Keating, and 
distinguished members of the subcommittee, it is an honor to 
testify before you today with my excellent colleagues 
Ambassador Frederic Hof and Hassan Hassan.
    Syria stands today at the epicenter of a regional conflict 
with global consequences for U.S. interests. Countering 
terrorism is one aspect of a deeper problem set. The Trump 
administration and the Congress have the opportunity to change 
the course of U.S. policy toward Syria by nesting short-term 
operations into a strategy.
    Americans have no interest in perennial military 
interventions in the Middle East. We have demands for resources 
at home and competing geostrategic objectives in Europe and 
Asia. However, the United States has compelling reasons to 
counter terrorism and to address the broader factors that have 
enabled the rise of the so-called Islamic State and al-Qaeda's 
affiliate in Syria, Jabhat Fatah al-Sham. The growth of Iranian 
proxy groups and a battle-hardened Lebanese Hezbollah in Syria 
also pose counterterrorism challenges.
    Additionally, the United States has to contend with 
intertwined realities that could challenge its ability to 
influence outcomes to its advantage. Among these reasons are: 
Countering terrorists and the roots of terrorism, which 
threaten the U.S. homeland and our allies and partners; 
preventing military confrontation with Russia and Iran while 
limiting the long-term subversive influence they could have in 
the region; and stemming conflict emanating from Syria from 
further destabilizing neighboring states in Europe.
    Achieving U.S. objectives in Syria will require inherent 
tradeoffs in the policy choices the Trump administration could 
pursue. Complicating matters, 6 years of war have torn Syria 
apart. It no longer exists a unitary whole, requiring different 
approaches in the north, south, east, and west. Woven 
throughout the options in Syria are geopolitical choices with 
which the United States will have to grapple, including how to 
manage tensions with Russia in a way that secures U.S. 
interests and contests Russian aggression globally while 
cooperating where it is advantageous and feasible; how to 
calibrate pressure on Iran's destabilizing activities without 
provoking blowback to U.S. Forces operating in the area and 
while attaining an enduring political outcome in Syria; and how 
to manage deeply fraught relations with NATO ally Turkey while 
leveraging the highly capable YPG to fight ISIS in northern 
Syria.
    The Trump administration and Congress should work together 
to forge a coordinated U.S. strategy for Syria with allies and 
partners. The goals of this strategy should be to degrade ISIS 
and JFS, achieve a nationwide cessation of hostilities and a 
negotiated transition of power in Damascus, and consolidate 
counterterrorism gains by knitting together local security and 
governance in the four segments of Syria.
    Such an approach will require leveraging multiple tools of 
U.S. statecraft, including: Registering strong concerns with 
Russia and Iran about their support for Assad's brutal tactics 
and their long-term ambitions in Syria and being prepared to 
back up those concerns with sanctions and coercion; rebuilding 
communication and trust with Turkey. While pressing on human 
rights concerns, we should emphasize the criticality of working 
through differences as NATO allies. Bolstering support to Iraqi 
Prime Minister Haider al-Abadi and his efforts to restore 
security and stability in Iraq. If Iraq falters, ISIS and other 
terrorist groups will regrow in western Iraq and push back into 
Syria. Working with the U.N. to leverage and integrate the 
Astana process into a U.N.-mediated negotiations, calibrating 
sanctions pressure on Putin to convince Assad to accede to the 
negotiating table, requiring Russian action before alleviating 
sanctions. Ukraine should not be a quid pro quo for Syria. 
Synchronizing operations for Raqqa and Mosul to squeeze ISIS, 
and aligning covert and noncovert approaches versus ISIS and 
JFS.
    Letting operational conditions on the ground inform 
strategic adjustments and withdrawal timelines. Countering ISIS 
and JFS will be a multiyear effort. Increasing both special 
operations forces and conventional ground forces in Syria and 
Iraq, based on commanders' assessed requirements, conducting 
training and combat operations with local partners. 
Consolidating gains from operations, knitting connections among 
local security forces and governance structures so that 
terrorist groups cannot grow back. Being strategic about 
deploying the local partner forces that will be the most 
credible, accounting for ethno-sectarian differences, even if 
it requires a slower pace for operations.
    If the United States commits resources to establishing a 
safe zone, I recommend constructing one in southern Syria where 
operational dynamics are clearer than in the north and to 
ensure that it ties to political negotiations to end the civil 
war so as to avoid an open-ended commitment.
    We should also enhance intelligence sharing and improved 
coordination among military intelligence and law enforcement 
entities and continue to provide humanitarian assistance to 
besieged civilian areas with clear and immediate repercussions 
in the case of outside interference.
    Finally, we should seek a new authorization for the use of 
force for the U.S. intervention in Syria and Iraq providing for 
operational flexibility to U.S. commanders. The presence of 
ISIS and al-Qaeda in Syria demands our immediate attention. 
However, the United States must anchor its counterterrorism 
approach in a broader strategy if it is to prevail.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Dalton follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Poe. I thank all of you all for your testimony. I will 
recognize myself for 5 minutes.
    First of all, I gave each of you a list of the participants 
as I know them as of today. Ambassador Hof, I will just ask you 
quickly, is this a fair statement of the lineup of the players?
    Ambassador Hof. I think, broadly speaking, Mr. Chairman, it 
is a fair lineup. The only--the only thing off the top of my 
head I might take issue with here is listing ISIS under the 
roster of anti-Assad forces. There has been, for the past 3 
years, a live and let live relationship between the regime and 
ISIS. The regime's military effort, the military effort of 
Russia has been directed at elements other than ISIS with rare 
exception.
    Mr. Poe. Okay. Thank you. And it is a fair statement that 
there is an ebb and flow of the anti-Assad forces as to who 
they are today, whether they are anti-Assad or whether they are 
just working for their own self-interest in particular areas of 
the country. Is that a fair statement?
    Ambassador Hof. Yes, it is, Mr. Chairman. There is probably 
an example of just about everything in Syria today.
    Mr. Poe. You have the bona fide rebel forces who want to 
overthrow Assad; you have out-of-towners who are criminals that 
are looking to loot, pillage the area; you have people coming 
in to take over territory. You just have everybody there in the 
anti-Assad group. Is that a fair statement?
    Ambassador Hof. You have got local elements that, for 
criminal purposes, have taken full advantage of local 
situations. You also--you also have an ebb and flow of people 
depending on resource availability.
    One of the great successes of the al-Qaeda elements in 
Syria is that they have been pretty well resourced and have 
been able to pull away young Syrian men who are anti-Assad, 
originally lined up with the Free Syrian Army and so forth, but 
who have gone to work for an organization where they know--
where breakfast is going to come from, they know they have got 
a serviceable weapon, they know they have got plenty of 
ammunition, so that has been a factor as well.
    Mr. Poe. Are any of the Middle Eastern countries, Saudi 
Arabia, Qatar, UAE, are they funding any of these groups like 
al-Qaeda, quasi-terrorist groups?
    Ambassador Hof. I think, Mr. Chairman, the bulk of the 
evidence suggests that at an official level, no. These 
governments are not funding al-Qaeda or ISIS or any of those.
    Mr. Poe. But it would be a fair statement that money is 
coming from those countries?
    Ambassador Hof. You bet, you bet. It would be a totally 
fair statement. There is money coming, I think in recent 
reports, Qatar and Kuwait have earned honorable or dishonorable 
mentions in this regard.
    Mr. Poe. Dishonorable mentions. So you have at least three 
terrorist groups. You have ISIS, you have al-Qaeda, and you 
have Hezbollah, three terrorist groups, questionable whose side 
they are on on any given day.
    Let me ask you this. The U.S.--let's talk about the United 
States' role. In the past, we decided we would fund 5,000 so-
called moderate rebels. That turned out to be a disaster. It 
cost us $\1/2\ billion. Armed 60 of them and they surrendered 
after the first day. I say that to say it is difficult to know 
who we are dealing with as a country when we turn over American 
equipment and American money.
    What should the United States do? Should we just stay the 
course, give a little money, a little weapon here and there? 
Should we go all in with the, you know, with the B-52s? So I 
say that, not facetiously, but all in all should we just say 
this is not our battle? Which of those three options, and I am 
going to ask each of you to give me which option the United 
States should take from this point on.
    Mr. Hassan, which position should the U.S. take?
    Mr. Hassan. I think what the U.S. should be doing and what 
should----
    Mr. Poe. Which of those three options?
    Mr. Hassan. I think they have to be more--they have to go 
all--politically all in, and I think that is where the U.S. has 
been lagging behind. They haven't pegged a political track to 
the military track as necessary.
    Mr. Poe. All right. Ambassador Hof.
    Ambassador Hof. I would say all in using a whole-of-
government approach to this. It is not entirely a military 
issue. Against ISIL it is, for sure, but there are--you know, 
the security of Americans is what is at stake and what is----
    Mr. Poe. Sure, political solution.
    Ambassador Hof [continuing]. Bubbling up out of Syria.
    Mr. Poe. And Ms. Dalton.
    Ms. Dalton. I think we have to go in with a multifaceted 
approach that pushes hard politically, that creates leverage 
with Russia and Iran to pressure Assad to come to the 
negotiating table, and to change the military balance on the 
ground by continuing to support the groups that we have been 
working with.
    Mr. Poe. I thank all three of you.
    And I recognize the gentleman from Massachusetts, ranking 
member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Ms. Dalton, you mentioned in your opening remarks, 
``Ukraine should not be a quid pro quo for Syria.'' What 
prompted those statements from you?
    Ms. Dalton. Thank you, Ranking Member Keating. There have 
been reports of late that as the new administration is 
examining the policy options before it, which are, of course, 
global in scale given where the United States sits in the 
world, that they might take a different approach to Russia and 
that perhaps there is some transactional trade space to be had 
in areas where Russia and the United States are conflicting or 
have been conflicting. And there is a notion that perhaps an 
agreement could be reached with the Russians such that the 
United States would turn a blind eye to Russia's activities in 
Ukraine in Crimea in exchange for Russian cooperation against 
ISIS in Syria and working with Assad.
    The reality is that that would be strategically foolhardy 
for the United States, in my opinion, to go down that pathway. 
Russia responds to strength, and rewarding Russia for bad 
behavior by encouraging more bad behavior doesn't seem to be a 
recipe for success.
    Mr. Keating. Let me follow that up, if I could.
    Ms. Dalton. Yeah.
    Mr. Keating. The Trump administration has repeatedly 
embraced the idea that the U.S. should cooperate with Russia on 
counter-ISIS or ISIL operations in Syria. How possible is that 
engagement in security in cooperating with Russia without 
working with Iran and its affiliates? Any of you.
    Ms. Dalton. Yes. I think--before turning to the Iran bit of 
that question, I think it is important to note that the vast 
majority, up to 80 percent of Russia's air strikes in Syria 
have not been on ISIS targets. They have been on other Syrian 
opposition groups, some of which have been supported by the 
United States and our partners, and against civilian targets in 
Syria. So the idea--in a very sort of objective way of looking 
at this, our objectives are not aligned with Russia in terms 
of----
    Mr. Keating. Professor Hof, same question.
    Ambassador Hof. Yes, sir. I would certainly not begrudge 
the administration the ability to conduct its due diligence 
about the possibility of some kind of diplomatic and even, 
eventually, military cooperation with Russia. I have--I have my 
doubts as to whether there is any there there, but doing the 
diplomatic due diligence, look, there is no doubt whatsoever 
that the leadership in Russia has no affection, much less 
respect for Bashar al-Assad. Bashar al-Assad has served a 
political purpose, to date, for President Putin. For our 
Government to explore whether there is a possibility of Russia 
using some leverage to push Assad into meaningful negotiations, 
I think it is worth a try.
    Mr. Keating. Yeah. Mr. Hassan, how--could you--Mr. Hassan, 
I mean, could you follow up, but also talk about the ability of 
the U.S. and Russia sharing information, vital information in 
that quest.
    Mr. Hassan. Absolutely. I think it is possible to cleave 
away Russia from Iran but only under one condition, which is 
that the U.S. pursues the right policy inside Syria, regardless 
of how Russia perceives that, which is basically a change in 
Syria that has seen legitimate--like as a legitimate change 
inside Syria, and the defeat--and focus on the political 
environment inside Syria as much as the military challenge that 
ISIS and al-Qaeda pose.
    Only then would Russia start to maybe work with Americans 
in the right way against the interest of Iran. We know that the 
priorities of the two countries are different. They are long-
term priorities at least.
    Mr. Keating. Perhaps, if I could interrupt just to put this 
on the table, we are running out of time, but I think other 
people will follow up. I haven't heard you talk about safe 
zones. If you could comment on some of the drawbacks of safe--
and dangers of safe zones, what we should be looking out for, 
what is possible.
    Ambassador Hof. I think the main--the main thing to try to 
understand about safe zones is that it requires very strong 
protection not only from 30,000 feet, not just a no-fly zone, 
it requires decisive military power on the ground. This is what 
distinguishes a safe zone from a killing zone where people are 
inadvertently drawn in to a situation where they are not 
protected on the ground and as a result, slaughter takes place.
    Mr. Keating. Yeah. And infiltration from terrorists.
    I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Cook.
    Mr. Cook. Thank you very much.
    One of the countries that is not listed right on this list 
or your list is Israel, and a lot of the foreign policy that we 
have in the United States is very sensitive to Israel's 
position.
    Do you have any comments in regards to how Israel views 
this situation? I know the relations with Russia isn't bad, but 
their position against Hezbollah and Iran, I think, is well 
known, and they consider them a, you know, a major threat to 
the country. Anyone?
    Ms. Dalton. Thank you, Congressman. I believe that, from a 
security perspective, Israel is very concerned about the growth 
and development of IRGC-backed groups, not just Lebanese 
Hezbollah but the up to 115,000 Iranian-backed groups that are 
present in Syria and bolstering the Assad regime, and what that 
portends for the long-term presence of those groups in Syria 
and how that could potentially serve as a beachhead for IRGC 
activities that could threaten Israel and its interest.
    On top of that, the fact that Lebanese Hezbollah has 
acquired further operational refinement and capability 
development through its activities in Syria that could then be 
taken back to Lebanon and threaten Israel, I think is also 
something that the Israelis are very concerned about from a 
security perspective.
    Mr. Cook. I noticed Hamas was not listed on there. Do you 
have any comments about Hamas? Anybody? No? They are a 
nonplayer?
    Ambassador Hof. I think, Congressman, Hamas has been 
essentially a nonplayer in Syria for--there used to be an 
office in Damascus. It left, and I believe it has been a 
nonplayer for awhile in the Syrian context.
    Mr. Cook. Okay. Going back to Assad. I still--being a 
history major, and the history of Hezbollah and in Iran and 
their conduct there, it is very hard for me to accept the 
Russian position in Syria and some of the other countries 
there. The pro-Assad forces, I think they are very accurate 
there. Pro-Assad, obviously Iran, North Korea, China, and 
Hezbollah. And so I am still very, very nervous about any 
Russian affiliation with Assad and because of his conduct, both 
the present ruler and his father, which has been going on for 
years, and the number of people that have been killed in that 
country.
    I yield back. Thank you.
    Mr. Poe. The Chair recognizes the gentlelady from Nevada, 
Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would just like to ask you about the perception of the 
United States in the region within Syria. You know, with the 
travel ban, with our unwillingness to do our part to help 
refugees, the recent announcement, perhaps, that they are going 
to continue to go down this path, what kind of perception will 
we have to overcome to be successful in the area? And is this 
working in the hands of some of the terrorist groups to use as 
propaganda against us in making the situation worse? Anybody, 
or all of you?
    Mr. Hassan. Sure. I think many people, especially people 
who are in charge of the campaign against ISIS and al-Qaeda, 
recognize that the framing of the fight against these 
organizations is as important as the military challenge. So if 
your--if you have like 60 countries fighting ISIS and ISIS is 
telling everyone that these are crusaders, these are not 
fighting us because we are terrorists but fighting the Sunnis, 
look at the devastation in Mosul but also look at the 
devastation at Aleppo. These are two separate powers doing work 
in two countries against Sunnis.
    So I think the framing of the fight against ISIS is as 
crucial as the military challenge. The ban itself is not as 
much discussed in the region as here, obviously, but I think 
there is a--perception matters a lot in Syria and Iraq. And 
that is why there is a danger in working with the Russians 
without really working out the political formula in the two 
countries.
    Ms. Titus. Ms. Dalton, or Ambassador?
    Ambassador Hof. I would say, Congresswoman, there is--the 
United States does have a--definitely an image and a perception 
problem in Syria. It was not born with the executive order. 
Okay? It goes back. It goes back a few years. Expectations that 
the Obama administration, for example, would do something short 
of invading and occupying the country to protect Syrian 
civilians from mass murder. The fact that that never happened, 
unintended consequence for sure, but it does bear on our 
reputation in the country.
    My organization, the Atlantic Council, recently published 
what I consider to be a very, very important nonpartisan 
bipartisan effort. Steve Hadley and former secretary Madeleine 
Albright have published a Middle East Strategy Task Force 
report. And what comes through clearly in this report is the 
absolute need we and our transatlantic partners have for 
partnerships within the region.
    Ultimately, if terror is going to be killed and kept dead 
in the Middle East, it is going to be Muslims in the lead. All 
right? And again, nobody begrudges the President of the United 
States, his authorities, his views about the national security 
of the United States, but when we do these things, I think--I 
think we have to keep in mind the imperative of partnership in 
the region, who our partners need to be. And I suspect the 
administration will be doing a better job in that respect.
    Ms. Titus. Thank you. Ms. Dalton.
    Ms. Dalton. I would completely align myself with Ambassador 
Hof's remarks in terms of the necessity of reaching out, not 
only to our traditional partners, but also civil society 
organizations on the ground. The best messenger of countering 
violent extremism is local actors, local religious leaders, 
community activists. They are credible in the eyes of the 
people that we are trying to reach. And I think bolstering 
resourcings for those efforts through third-party means is 
exceptionally important. And really creating a coalition of not 
just government to government but also public-private 
partnerships also must be part of the equation.
    Ms. Titus. Thank you.
    I yield back.
    Mr. Poe. I thank the gentlelady.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Ambassador Hof, thanks for your service. In 2015, ICE, 
Immigration and Customs Enforcement, reported through their 
intelligence sources that ISIS had been able to co-opt or to 
obtain passport information data, biometric data, facilities, 
equipment, et cetera, in Syria, and they were able to falsify 
or manufacture passports in that regard with that information.
    I am just wondering, since that time, this is the end of 
2015, as I understand it and as I recall it, did we ever verify 
that? And does ISIS or al-Qaeda, for that matter, currently 
maintain access to Syrian Government facilities, equipment, 
biometric data, passport information, et cetera, that would 
allow either one of those groups to forge passports and/or 
falsify identities? Anybody?
    Mr. Hassan. Sure. Just quickly. I think the only place 
that, you know, people inside Syria talked about with little 
evidence was Aleppo, but ISIS did not go to Aleppo. So if there 
was another--if there was one group that took the--you know, 
seized these ones, it wouldn't be ISIS. It would be Free Syrian 
Army groups.
    Mr. Perry. But involved in the Free Syrian Army--I mean, we 
have a hard time, I think, distinguishing who's who, and it 
changes, in some respects, seems to be month to month or if you 
want to say year to year. Could those--that information have 
fallen into the hands of al-Qaeda or al-Qaeda operatives, even 
if they weren't particularly ISIS operatives?
    Mr. Hassan. I can't say, to be honest.
    Mr. Perry. Based on that, I mean, and maybe in conjunction 
with that, I mean, what confidence should the United States 
Government have in the Government of Syria and the actors in 
Syria to accurately confirm the identities of immigrants or 
refugees from Syria?
    Ambassador Hof. Congressman, my sense, and I am certainly 
not an expert in consular affairs, my sense is that there is a 
very intensive and very long vetting process for Syrian 
refugees to come to the United States. My suspicion is that the 
administration will probably find some tweaks, if you will, to 
improve that on the margins, but my--again, not being a 
consular specialist, you know, my sense from people who are in 
this business is that Syrian refugees considered to come to the 
United States get a pretty thorough scrubbing.
    Mr. Perry. I am not doubting at all the capabilities, the 
diligence, et cetera, of the people in the United States doing 
the vetting. What I am questioning or trying to determine is 
the validity of the information that they compare against, who 
is giving it to them, what their interests may be, those who 
are giving the information, and the validity and the competence 
in the validity of that information coming from--does all that 
information come from the Assad Government or is there anybody 
else providing information? If you don't know, you don't know, 
but I am just--you know, looking at the map, I mean, obviously 
there is a lot of different players, right?
    So when a refugee comes from here, are they getting the 
information from Damascus, they being the United States, to vet 
this person, or is somebody in this region or any of these 
other regions providing some form of governance or tyranny or 
whatever you want to call it--where is that information coming 
from? Do we know? Do you know?
    Ambassador Hof. Congressman, speaking for myself, I don't 
know. Syrian refugees in Turkey, Lebanon, Jordan, elsewhere in 
Europe who apply to come to the United States have, in most 
cases, documentation from the Syrian Government: Passport, 
I.D., and so forth. That, I think, is where the investigation 
starts.
    There are numerous, numerous agencies of the United States 
Government involved in this, numerous international 
organizations as well. And I, although I don't know, I strongly 
suspect that the kinds of questions that you are putting your 
finger on as to the validity of basic identity documents 
probably rates high in these investigations.
    Mr. Perry. Thank you, Ambassador.
    Mr. Chairman, I yield.
    Mr. Poe. I thank the gentleman.
    Ms. Dalton, I understand that you need to leave. There may 
be questions that members of the committee have not been able 
to ask you and they may turn those in in writing, which will be 
forwarded to you, and we would expect you to answer those 
questions within a week of when you received them. With that 
understanding, then you can leave.
    Ms. Dalton. Thank you so much, Chairman. And I beg the 
subcommittee's forgiveness. I have a flight to catch today, but 
thank you so much for the opportunity to testify, and I would 
be glad to answer any followup questions. Thank you.
    Mr. Poe. Thank you, Ms. Dalton.
    Mrs. Torres, you probably had all your questions for Ms. 
Dalton, but you are recognized.
    Mrs. Torres. Absolutely, but that is okay. Thank you so 
much, Mr. Chairman.
    Terrorism, in many ways, is fueled by poverty and poor 
governance. In the long run, if Syria doesn't see better 
governance and prosperity, then even if ISIS is defeated, 
something else will take its place.
    Getting back, Ambassador Hof, to, you know, what you were 
trying to get at earlier when you said, you know, who should 
our partners in the region be, who should we be working with 
there, I wonder if you can sort of look at your crystal ball, 5 
years from now, down the road, you know, what are the prospects 
for the Syrian economy and Government? Will the Syrian economy 
and Government be better off if Russia and Iran are in the main 
outside powers shaping events in Syria, or should--what would 
that look like if the U.S. and Europe are the main outside 
powers shaping events in Syria?
    Ambassador Hof. Thank you for your--thank you for your 
question, Congresswoman. I would say off the top of my head 
that if Iran, in particular, is playing a decisive role 5 years 
from now in Syria, Syria will be basically a smoking pit, and 
it will be hemorrhaging human beings in all directions.
    Iran--Iran needs Bashar al-Assad for one thing and one 
thing only. He is--he and his entourage are the only people in 
a very nationalistic country willing to subordinate Syria 100 
percent to Iran on the issue of Hezbollah. Iran knows there is 
nobody else in the country willing to go that far. So from 
Iran's point of view, it is Bashar or nothing.
    Now, there are estimates out there that the rebuilding of 
Syria is going to take something on the order of $350 billion 
worth of investment, in some cases aid, grants. We are not even 
talking about humanitarian assistance here. Reconstruction. 
Okay? And there is a practical problem here, and I think the 
Russians get this, okay, because the Russians know the Assad 
regime probably better than any of us.
    Mrs. Torres. But do they understand the rule of law?
    Ambassador Hof. I don't think that is a--I don't think that 
is a high priority. I think--I think what the Russians do 
understand is it is going to be very difficult for 
international financial institutions, for the United States, 
for Japan, for Western Europe to make the kinds of investment, 
make the kinds of grants and loans if you have got Bashar al-
Assad and his entourage sitting there with their hands cupped 
ready to take a piece of this.
    Now, you know, as an American, like everybody else here, I 
am--I guess I am basically an optimist. Yes, 5 years from now I 
do see Syria in a much better place, but that--that is going to 
require very, very, very strong efforts for all of us. There is 
a formula out there for moving toward a national unity 
governing scheme. It was agreed in June 2012 by Russia, China, 
the United States, Great Britain, and France. Our diplomatic 
challenge right now, I think, is to try to convince the 
Russians to get that back on track.
    Mrs. Torres. But meanwhile, you know, we have thousands of 
people that are--continue to be slaughtered in the region and 
with very little control. You, yourself, stated that there is 
very little protection in some of these camps for folks. What 
more can be done to get our regional partners involved, if not 
Russia?
    Ambassador Hof. I think--I think for all of our regional 
partners there is a--there is an obligation that needs to be 
met in terms of providing sufficient funds for the humanitarian 
assistance that needs to take place. Thanks to you ladies and 
gentlemen and your colleagues in the appropriations process, 
the American taxpayer has been very generous in this respect.
    Mrs. Torres. Thank you.
    And I yield back.
    Mr. Poe. I thank the gentlelady.
    The Chair recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    Mr. Hassan, I want to clear up the record based on some 
questions asked by my colleague from Pennsylvania, Mr. Perry. 
He queried you whether or not there might have been access to 
equipment in Aleppo that might allow individuals to forge 
Syrian passports, official documents, and your response, as I 
recall, was that ISIS was not in Aleppo, that that was the Free 
Syrian Army. Is it not also true, however, that a significant 
faction in Aleppo was Jabhat al-Nusrah or Jabhat Fatah al-Sham?
    Mr. Hassan. Inside Aleppo, Jabhat al-Nusrah Arpar was never 
dominant. That was true until it was expelled--until the 
Russians and the regime expelled the rebels from Aleppo.
    Mr. Garrett. Okay. But there were factions of Jabhat al-
Nusrah and Jabhat Fatah al-Sham in Aleppo, correct?
    Mr. Hassan. Absolutely.
    Mr. Garrett. And Aleppo was, prior to this upheaval, the 
largest city in the nation and a seat for a significant amount 
of government activity, correct?
    Mr. Hassan. Yes. Remember, this was in 2012, and the 
jihadists were not yet there in that sense.
    Mr. Garrett. Well, Mr. Hassan, the people who I have spoken 
with who were there on the ground indicated that when the Arab 
Spring occurred, the uprising was of individuals who had 
dissatisfaction with the regime but not necessarily an intent 
to overthrow. Ultimately, that leadership was co-opted or even 
killed and replaced by elements affiliated with al-Qaeda, 
originally known as al-Nusrah, right, and then an evolution of 
names.
    I guess what I am driving at is, the answer to Mr. Perry's 
question was, if they controlled the proper parts of Aleppo, 
al-Qaeda-affiliated elements may have had access to equipment 
that could be used to forge government documents. And they were 
in Aleppo, were they not?
    Mr. Hassan. In all honesty, I can't tell, because I have 
no--I have not--I have no evidence to that or the contrary. But 
it is all possible. The regime still had presence inside 
Aleppo, so the equipment would have been taken very quickly to 
the west side of Aleppo where the regime was there. There was 
rumors that--there were rumors that some biometrics machines 
were still there.
    Mr. Garrett. And we know that there were elements of what 
was originally al-Nusrah, which is morphed into an al-Qaeda 
affiliate, that were in control of portions of Aleppo over 
periods of time.
    Mr. Hassan. Yes, lately.
    Mr. Garrett. Okay. I wished that Ms. Dalton didn't have to 
leave. We have talked a lot, and her comment was, ``our 
objectives are not aligned with those of Russia.'' What would 
either of you gentlemen or both articulate as our objectives?
    Ambassador Hof. I would say, Congressman, our principal 
objective is to defeat terror in Syria and keep it dead. This 
is--this is a national security objective, okay. Part of that 
involves going after ISIL directly militarily as quickly as 
possible. This organization has been sitting in its Syrian 
capital of Raqqa for a few years now. It has planned and 
executed some major atrocities in Europe. I mean, I have been 
asking myself, you know, for quite some time now how lucky do 
we think we are, okay. But killing that organization is one 
thing. Ultimately, there has to be something resembling decent, 
responsive, legitimate governance in Syria to keep it dead, and 
this is going to be the work of several years.
    Mr. Garrett. So I don't want to be disrespectful, and I 
appreciate your time, but I have limited time. So our objective 
is decent, responsible government in Syria that will protect 
Syrians. Okay. And right now, there--you can see that the vast 
bulk of, quote, anti-Assad military power on the ground is 
Kurdish in nature if you extract ISIS and al-Qaeda-affiliated 
elements. Combat power on the ground, we both served, that 
aside from ISIS and al-Qaeda-affiliated elements, the most 
powerful player that is <greek-l>quote,  deg.``anti-Assad is 
the Kurds.''
    Ambassador Hof. I would say, Congressman, the Kurdish 
military power on the ground in Syria, the YPG, this is 
predominantly our ground combat component against ISIL. They 
are not--they are not fighting--they are not fighting the 
regime.
    Mr. Garrett. I agree, and that is why I used quotes when I 
said anti-Assad, because they are included on this form as 
anti-Assad. They are really pro-protecting themselves. And we 
have had wonderful success working with Kurdish minorities, but 
one thing we have learned is the Kurdish minorities protect 
Kurdish regions and then say why are we going this direction, 
right. And so the question becomes, and I know I am almost out 
of time, who is the viable entity to replace the Assad regime, 
because it is not ISIS or al-Qaeda? So who is there that can do 
it?
    Ambassador Hof. Congressman, there is--there is--there is a 
process, again, that was agreed to by the permanent five 
members of the Security Council on June 30, 2012. I was there 
as part of the American delegation when this agreement was 
reached.
    If we can somehow get back to that process in forming a 
national unity entity that will include, inevitably, members of 
the Syrian Government, you know, who are not--who are not 
covered in blood over the past few years, if we can get that 
way, that is--that is the beginning of the end for terrorism in 
Syria.
    Mr. Garrett. Mr. Chairman, I respect that my time is up.
    Mr. Poe. All right. The gentleman's time is expired.
    The Chair recognizes the gentlelady from Florida, Ms. 
Frankel.
    Ms. Frankel. Thank you, Mr. Chairman. I will be quick. I 
have to go to another meeting.
    Thank you both for your testimony, and I just wanted to 
make two points. I think it was Ms. Dalton, but maybe somebody 
else, that talking about the necessity, perhaps, of making some 
type of deal or cooperative arrangement or using sanctions 
against Russia in order to influence Assad. And I think this 
paper we were given just shows there is such a complicated web 
of players, andunraveling it is a phenomenal exercise.
    But I want to say that if we are going to have any hope of 
working with Russia, then I want to respectfully suggest that 
this Congress needs to know the relationship of Russia to the 
folks currently in the White House. And the resignation today 
of General Flynn, I think, calls in serious question as to what 
exactly who knew what, what did they know, when did they know 
it, and what is the real relationship between the White House 
and Russia. That is number one.
    Number two, I think it was the Ambassador that said--called 
what was going on in Syria a humanitarian abomination. And was 
that you, sir? Yes. I agree with you. I think everybody here 
agrees with you. I think our chairman laid out initially in his 
remarks the horrors of what is going on. And I can just say 
this, I heard the sadness in your heart of what is going on. 
What is it, \1/2\ million people probably killed, 50,000 
children, the President bombing his own people.
    And so I wanted to say what I think is another abomination, 
and that is the position of the United States of America that 
we do not want to take any of these Syrian refugees into this 
country. I think that is an abomination. And I yield back.
    Mr. Poe. I thank the gentlelady.
    And the Chair recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me get to the nitty-gritty. First of all, this is a 
hearing that is represented by think tanks. One of the think 
tanks, she had to leave, but let me ask this: Do either of your 
think tanks receive contributions from Gulf State countries?
    Ambassador Hof. Sir, the case of the Hariri Center for the 
Middle East, we receive no government funding at all.
    Mr. Rohrabacher. Or from private sector people from the 
Middle East?
    Ambassador Hof. Our principal donor is of Lebanese 
citizenship residing in Europe.
    Mr. Rohrabacher. A Lebanese citizen?
    Ambassador Hof. Yes.
    Mr. Rohrabacher. And what about from your think tank?
    Mr. Hassan. No government money.
    Mr. Rohrabacher. No Arab money comes from----
    Mr. Hassan. Not that I am aware of, no.
    Mr. Rohrabacher. Okay. And where does your money come from?
    Mr. Hassan. Oh, Arab, sorry, and Egypt, yes.
    Mr. Rohrabacher. But Arab money, yes.
    Mr. Hassan. Egyptian businessman, the principal----
    Mr. Rohrabacher. And what Arab money goes into your----
    Mr. Hassan. Just Egypt.
    Mr. Rohrabacher. Who?
    Mr. Hassan. Egypt.
    Mr. Rohrabacher. Oh, Egypt. I didn't know Egypt had enough 
money to send over here. We just got back from there.
    Mr. Hassan. Not the government.
    Mr. Rohrabacher. Not the government. All right.
    Well, thank you. Let me just note that I have just got some 
specific questions for you. If Assad--if we are going to 
compare Assad, this brutal horrible man, to the other countries 
in the Gulf, Qatar, Saudi Arabia, even UAE, or now we are 
finding maybe Erdogan in Turkey. We know the Iranians are very 
brutal. But if, let's say, with Qatar, let's use that as an 
example, if there was an uprising against the royal family in 
Qatar and it was financed by people from the outside trying to 
overthrow, basically, an insurgency to overthrow the royal 
family and replace it with, of course, let's say you have all 
of those nine out of ten people in Qatar are guest workers, 
let's say they are declaring themselves for ISIL, and they get 
some support from the outside like that, basically, do you 
think that the Government of Qatar or these other governments 
would be less bloody than Assad when Assad was faced with an 
insurgency movement in his country? Either one of you. These 
are more benevolent than Assad?
    Ambassador Hof. I would say--I would say, Congressman, that 
I would find it very, very hard to imagine anyone else in the 
region adopting a political survival strategy that focuses 
almost exclusively on civilians----
    Mr. Rohrabacher. On what?
    Ambassador Hof. On civilians and on civilian terror.
    Mr. Rohrabacher. Uh-huh.
    Ambassador Hof. Okay. I think, you know, whether we look at 
the Independent International Commission of Inquiry and its 
work, if we--if we--if we look at the work of major American 
NGOs----
    Mr. Rohrabacher. I cut what you--reclaiming my time.
    Ambassador Hof [continuing]. I think the record is clear.
    Mr. Rohrabacher. I have got 5 minutes. How about you? Do 
you think these other countries are more benevolent than Assad?
    Mr. Hassan. To be honest, I don't think they would do the 
same.
    Mr. Rohrabacher. They wouldn't do the same.
    Mr. Hassan. What happened in Syria never happened.
    Mr. Rohrabacher. I am sorry, but I have got a limited 
number of time. You both think that these powerful forces that 
have--that are armed to the teeth would permit an insurrection 
to succeed in their countries and not utilize their weapons to 
destroy and obliterate anyone who is supporting the insurgency. 
I think you are wrong. We will leave that to whoever is 
listening to this and reading the transcript.
    We have \1/2\ million people who have been dead. Many of 
them are refugees, there is no doubt about that. There are, of 
course, a lot of people who are dead who became refugees and 
survived who are leaving and fleeing ISIL, wasn't it? I mean, 
didn't we have the ISIL people at the same time murdering 
Christians by lining them up, and in the grossest fashion, 
cutting off their heads and engaged in--yes, bombing people 
from the air is brutal and kills children, et cetera. Cutting 
people's heads off is a way to frighten large numbers of people 
and turn them into refugees. We know that happened.
    I don't have to tell you, I do not see--I do not believe 
that this regime and Assad's regime is any different than the 
rest of the regimes that I have seen for the last 28 years. And 
there is no reason why--you stated when we asked what our 
objective is. Our objective is to eliminate these terrorists? 
No, terrorism and the terrorist forces there. What we have done 
is our major focus is getting rid of Assad when, in fact, it 
should be eliminating the ability of the terrorist forces in 
that region to commit acts that threaten our security, and we 
have not done that.
    Instead, by focusing instead on one dictatorial regime as 
compared to all the rest of those authoritarian and brutal 
regimes that exist in that area of the woods, one regime has to 
go, and our focus is on getting rid of that regime. That makes 
no sense to me. It is not in our interest any more than it 
would be in our interest if another regime was under attack by 
an insurgency from its own people.
    And in this case, let us not forget this insurgency has 
gone on and on and on. The amount of death that has happened 
has happened because we and others have given the Assad--
insurgents against Assad the idea that we are going to give 
them the means to succeed. And I will have to say that you are 
repeating. We have to go back to agreement made by outsiders, 
outside powers way back in 2012. I am sure that gives all of 
those people who are fighting Assad a reason to keep on going 
rather than ending this struggle. And if it ends with Assad 
still in power, I don't think it is going to be any different 
than having the royal family in Qatar or UAE or Iran or Saudi 
Arabia or now even Erdogan in Turkey remain in power.
    So with that said, thank you, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    And the subcommittee is adjourned. I thank the witnesses 
for being here.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         

     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
